No. _________
IN THE

Supreme Court of the United States
_____________________________
MARK ALLEN JENKINS,
Petitioner,
v.
JEFFERSON DUNN,
COMMISSIONER OF THE ALABAMA
DEPARTMENT OF CORRECTIONS,
_____________________________

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
_____________________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
_____________________________
Pursuant to Supreme Court Rule 39, Petitioner Mark Jenkins requests leave
to file the accompanying Petition for a Writ of Certiorari without payment of fees and
to proceed in forma pauperis.
Petitioner was previously granted leave to proceed in forma pauperis pursuant
to 28 U.S.C. § 2254(h) and 18 U.S.C. § 3006A in the United States District Court for
the Northern District of Alabama and in the United States Court of Appeals for the
Eleventh Circuit. The order of the United States District Court finding Petitioner
indigent and appointing counsel is attached hereto.

Respectfully submitted this 25th day of January, 2021.

__________________________________________________

Mridula S. Raman
Counsel of Record for Petitioner
DEATH PENALTY CLINIC
UNIVERSITY OF CALIFORNIA, BERKELEY
SCHOOL OF LAW
Berkeley, CA 94720
(510) 642-5748
mraman@berkeley.edu

2

Case 4:08-cv-00869-VEH Document 25 Filed 11/12/08 Page 1 of 7

FILED

2008 Nov-12 PM 02:30
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
MIDDLE DIVISION
MARK ALLEN JENKINS,
Petitioner,
v.
RICHARD F. ALLEN, Commissioner,
Alabama Department of Corrections,
Respondent.

]
]
]
]
]
]
]
]
]
]

4:08-cv-00869-VEH-PWG

ORDER
On May 16, 2008, Mark Allen Jenkins, petitioner, filed this petition for writ of habeas corpus
pursuant to 28 U.S.C. § 2254. (Doc. #1). The petition was filed on behalf of Mr. Jenkins by Joseph
T. Flood. The Motion to Proceed In Forma Pauperis (doc. #5) is GRANTED as Mr. Jenkins is
indigent. The Motion for Appointment of Counsel (doc. #3) is GRANTED pursuant to 28 U.S.C.
§ 2254(h) and 18 U.S.C. § 3006A. Joseph T. Flood is APPOINTED to represent Mr. Jenkins. Mr.
Flood’s Motion to Appear Pro Hac Vice (doc. # 4) is GRANTED pursuant to Local Rule 83.1 .
The motion of Michael A. Nunnelley seeking to withdraw as counsel for respondent (doc.
#7) is GRANTED as he no longer represents the State in capital murder cases.
On October 2, 2008, Jenkins filed a Motion to Stay and Hold in Abeyance (doc. #14) this
federal habeas action while he pursues a second state Rule 32 petition based on the recent Alabama
Supreme Court case of Ex Parte Burgess, 2008 WL 4097586 (Ala. September 5, 2008). Respondent
filed a Motion in Opposition to the Motion to Stay and Hold in Abeyance (doc. #16) and a Motion
to Supplement his Motion in Opposition to Petitioner Jenkins’s Motion to Stay and Hold his
Amended Habeas Petition in Abeyance (doc. #24) . Respondent’s Motion to Supplement his Motion

Case 4:08-cv-00869-VEH Document 25 Filed 11/12/08 Page 2 of 7

in Opposition to Petitioner Jenkins’s Motion to Stay and Hold his Amended Habeas Petition in
Abeyance (doc. #24) is GRANTED. Petitioner’s Request to file Reply to Respondent’s Opposition
to Mr. Jenkins’ Motion to Stay and Hold in Abeyance (doc. #17) is GRANTED. The reply (doc.
#18) was considered in preparing this order.
Petitioner complains that juror Leona Voss failed to respond accurately to questions during
voir dire when she was asked whether she or any close family members had been the victim of a
violent crime. This precise claim was raised during the first Rule 32 proceedings. Citing Alabama
Rules of Criminal Procedure, Rule 32.2(a)(3) and (5), the circuit court found the juror misconduct
claim to be barred from review because it could have been raised at trial or on appeal but was not.
(R-77, p. 5-16). The Alabama Court of Criminal Appeals held that the circuit court’s ruling was
supported by the record. Jenkins v. State of Alabama, 972 So.2d 165, 168 (Ala. Cr. App. 2006). The
Court of Criminal Appeals stated:
The Alabama Supreme Court in Ex parte Pierce, 851 So.2d 606
(Ala.2000), recognized that a juror-misconduct claim may be
procedurally barred in a Rule 32 petition. The Supreme Court stated:
“Although Rule 32.1(e) [newly discovered evidence] does not
preclude [the petitioner's] claim, Rule 32.2(a)(3) and (5) would
preclude [the petitioner's] claim if it could have been raised at trial or
on appeal.” 851 So.2d at 614.
Here, the State asserted that this claim was procedurally barred based
on Rules 32.2(a)(3) and (a)(5), Ala.R.Crim.P. Rule 32.3,
Ala.R.Crim.P., states:

2

Case 4:08-cv-00869-VEH Document 25 Filed 11/12/08 Page 3 of 7

“The petitioner shall have the burden of pleading and proving by a
preponderance of the evidence the facts necessary to entitle the
petitioner to relief. The state shall have the burden of pleading any
ground of preclusion, but once a ground of preclusion has been
pleaded, the petitioner shall have the burden of disproving its
existence by a preponderance of the evidence.”
(Emphasis added.) “Preponderance of the evidence” is defined as:
“The greater weight of the evidence, not necessarily established by
the greater number of witnesses testifying to a fact but by evidence
that has the most convincing force; superior evidentiary weight that,
though not sufficient to free the mind wholly from all reasonable
doubt, is still sufficient to incline a fair and impartial mind to one side
of the issue rather than the other.”
Black's Law Dictionary 1220 (8th ed.2004).
Jenkins submitted no evidence indicating why this claim was raised
in the Rule 32 petition and not in earlier proceedings. Jenkins's
attorney offered no explanation at the Rule 32 hearing. The only
reference in the record concerning the lateness of raising this claim is
the following statement contained in a response filed by Jenkins:
“After filing his petition for postconviction relief but prior to the
evidentiary hearing in this case, Mr. Jenkins obtained new evidence
suggesting that [L.V.] had a close relative who had been murdered.”
(Supplemental record, vol. III, p. 402.) The Alabama Supreme Court
in Pierce, stated that in order for a juror-misconduct claim to be
cognizable in a Rule 32 proceeding the petitioner must establish “that
the information was not known, and could not reasonably have been
discovered, at trial or in time to raise the issue in a motion for new
trial or on appeal.” Pierce, 851 So.2d at 616. Jenkins failed to meet
his burden under Rule 32.3, Ala.R.Crim.P.
This Court has held that the procedural default grounds contained in
Rule 32 apply to all cases, even to those in which the death penalty
has been imposed. See Burgess v. State, 962 So.2d 272 (Ala. Crim.
App. 2005); Hooks v. State, 822 So.2d 476 (Ala. Crim. App.2000);
Brownlee v. State, 666 So.2d 91 (Ala. Crim. App.1995); State v.
Tarver, 629 So.2d 14 (Ala. Crim. App.1993). We have previously
barred juror-misconduct claims in Rule 32 petitions attacking a
capital-murder conviction and death sentence. See Duncan v. State,
925 So.2d 245 (Ala. Crim. App.2005); Woods v. State, 957 So.2d 492
3

Case 4:08-cv-00869-VEH Document 25 Filed 11/12/08 Page 4 of 7

(Ala. Crim. App.2004). Compare McGahee v. State, 885 So.2d 191,
203 (Ala. Crim. App.2003) (held that claim of juror misconduct was
not procedurally barred because “[t]rial counsel testified at the Rule
32 hearing that the trial court had denied his request for funds to hire
an investigator, and that, if he had been able to hire an investigator,
he would have been able to obtain information on the veniremembers.
Counsel stated that obtaining information on the venire ‘was virtually
an impossibility to do....’ ”).

Jenkins v. State, 972 So.2d 165, 167 -168 (Ala. Crim. App. 2005). The Alabama Supreme Court
denied the petition for writ of certiorari on May 18, 2007.
Approximately 16 months later, on September 5, 2008, the Alabama Supreme Court decided
Ex Parte Burgess, 2008 WL 4097586 (Ala. September 5, 2008) in which the Court indicated that
claims of juror misconduct are more appropriate in the Rule 32 context rather than at trial or on
direct appeal:
The Court of Criminal Appeals improperly concluded that Burgess's
juror-misconduct claims are precluded by Rule 32.2(a)(3) and (a)(5);
Burgess showed, in the trial court, that he could not have reasonably
discovered the alleged juror misconduct in time to raise the claims in
a motion or a new trial or on appeal. See Ex parte Pierce, 851 So.2d
at 616. In opposition to the State's motion to dismiss his Rule 32
petition, Burgess asserted that he had “discovered only recently that
during voir dire at his trial, many of the jurors failed to accurately
answer questions.” Additionally, after the Court of Criminal Appeals
remanded the cause to the trial court for a determination of whether
the claims of juror misconduct could have been raised in Burgess's
motion for a new trial, Burgess informed the trial court that his
“failure-to-disclose claims were discovered by undersigned counsel
in [a] postconviction investigation.” Burgess's statement in response
to the trial court's order on remand at 7. Burgess further informed the
trial court that the “claims were not raised at trial or on direct appeal
because counsel had no information that such misconduct had
occurred and therefore was under no obligation to raise the claims.”
Id. Thus, as was the case with the petitioner in DeBruce, who first
learned of the juror misconduct five years after his trial and properly
raised claims of juror misconduct in a Rule 32 petition, Burgess first
4

Case 4:08-cv-00869-VEH Document 25 Filed 11/12/08 Page 5 of 7

learned of the juror misconduct years after his trial. See DeBruce, 890
So.2d at 1077.
Burgess reasonably expected that potential jurors answered accurately
the questions posed to them during the voir dire examination. It is
unreasonable to hold that a defendant must uncover any and all juror
misconduct in the form of inaccurate responses to voir dire
examination in time to raise such claims in a motion for a new trial
or on appeal. Requiring a defendant to raise such claims of juror
misconduct during the interval between the voir dire examination and
the filing of posttrial motions places an impracticable burden on
defendants. In this case, there is no evidence before us indicating that
Burgess suspected or should have suspected that any jurors did not
accurately answer a question during the voir dire examination.
Burgess particularly did not have any reason to suspect that a juror
allegedly had a personal relationship with the district attorney because
before trial his counsel had moved for the district attorney to disclose
any relationships he had with potential jurors.
The trial court, in finding that Burgess's claims were procedurally
barred by Rule 32.2(a)(3) and (a)(5), found “that the information
obtained from the jurors was available to newly appointed appellate
counsel and could have been raised in [Burgess's] Motion for New
Trial. All counsel had to do was to interview the jurors in post-trial
interviews just as was done by petitioner's counsel herein.” However,
it is unreasonable to require that a defendant, unaware of any failure
to answer correctly questions posed during the voir dire examination,
must contact each juror and ask whether he or she accurately and
truthfully answered such questions. Jury service is sufficiently
disruptive of a citizen's regular activities without this Court
announcing a rule that would routinely subject jurors to potentially
insulting postverdict interrogation concerning their veracity. Absent
any evidence that a telephone call to some or all the jurors would
have been nothing more than a mere fishing expedition, we cannot
hold on this record that Burgess's claims are precluded.

Ex parte Burgess,2008 WL 4097586, 7 -8 (Ala. 2008).
Because petitioner raised the same juror misconduct claim in his first Rule 32 petition and
the Court of Criminal Appeals recognized that Jenkins indicated that he did not learn of the

5

Case 4:08-cv-00869-VEH Document 25 Filed 11/12/08 Page 6 of 7

misconduct until after he filed his Rule 32 petition, the Court concludes that the state courts should
have the opportunity to revisit the juror misconduct claim before this court addresses it.
Petitioner’s Motion to Stay and Hold in Abeyance (doc. #14) is GRANTED only for the time
period that the Rule 32 petition and any appeal therefrom remain pending in state court. It is
ORDERED that no later than 45 days upon completion of the Rule 32 proceedings in state court the
parties shall provide the court with copies of rulings by all state courts to address the juror
misconduct issue in the context of the second Rule 32 petition. Because a petition for writ of
certiorari to the United States Supreme Court does not toll the running of the limitations period under
28 U.S.C. § 2244(d)(2), Lawrence v. Florida, 549 U.S.327 (2007), and has no effect on whether a
petitioner has exhausted the remedies available in state court, petitioner should not file a petition
for writ of certiorari in the United States Supreme Court upon completion of his second Rule 32
proceedings in state court as to do so would unnecessarily prolong the habeas proceedings in this
court. The Motion in Opposition to the Motion to Stay and Hold in Abeyance is OVERRULED.
Respondent’s October 17, 2008, Motion to Toll the Time for Filing his Answer to Petitioner
Jenkins’ Amended Petition (doc. #19) is MOOT as the Answer was filed on October 29, 2008.
Respondent will be ALLOWED an opportunity to submit a short response to the juror misconduct
claim upon completion of the current Rule 32 proceedings.
Mr. Jenkins’s Motion for Ruling on Prior Motions (doc. #23) is MOOT in light of the rulings
set forth above.

6

Case 4:08-cv-00869-VEH Document 25 Filed 11/12/08 Page 7 of 7

As to the foregoing it is SO ORDERED this the 12th day of November, 2008.

PAUL W. GREENE
CHIEF MAGISTRATE JUDGE

7

